CERTIFICATE OF WORD COUNT
No. TBD
Francisca Guillen, Individually and as Class Representative,
Petitioner(s),
v.
Dollar Tree Stores, Inc.,
Respondent(s).

STATE OF MASSACHUSETTS )
) SS.:
COUNTY OF NORFOLK
Being duly swort,'I 'depose ..and'say:
over the age of 18 years arid am not a party to this action. I am an employee of the
That I
Supreme Court Press, the preparer of the document, with mailing addreSs at 1089 Commonwealth
Avenue, Suite 283, Bdston, MA 02215.
That, as required by Supreme Court Rule. 33.1(h), I certify that the FRANCISCA GUILLEN,
INDIVIDUALLY AND `AS CLASS REPRESENTATIVE PETITION FOR WRIT OF CERTIORARI contains 3977
words, including the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dan Abramovich'

July 29, 2019
SOP Tracking: Brooks-1230 Rosecrans Avenue, Suite 200-Cover White

